No. 19IN THE

~uprrme Qlnurt nf f4e luiteh ~lutes
CITY OF CHICAGO,

V.

Petitioner,

ROBBIN L . FULTON,JASON S. HOWARD,
GEORGE PEAKE, AND TIMOTHY SHANNON,

Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.l(h), I, Craig Goldblatt, a member of the
bar of this Court, certify that the accompanying Petition for a Writ of Certiorari
contains 8,677 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.l(d).
Executed on September 17, 2019.

~~--CRAIG GOLDBLATT
WILMER CUTLER PI CKERING
HALE AND DORR LLP

1875 Pennsylvania Avenue NW
Washington, DC 20006
(202) 663-6000
craig.golclblatt@wilmerhale.com

